No. 19-1100

 

IN THE
SUPREME COURT OF THE UNITED STATES

LEROY D. CROPPER,
PETITIONER,
—

STATE OF ARIZONA ,
RESPONDENT.

STATEMENT OF MAILING
AFFIDAVIT OF SERVICE
CAPITAL CASE

EXTENSION REQUEST

MARK BRNOVICH
ATTORNEY GENERAL

ORAMEL H. (O.H.) SKINNER
SOLICITOR GENERAL

LACEY STOVER GARD
CHIEF COUNSEL
CAPITAL LITIGATION SECTION

LAURA P. CHIASSON
(COUNSEL OF RECORD)
CAPITAL LITIGATION SECTION
(COUNSEL OF RECORD)

400 W. CONGRESS, S-315
TUCSON, ARIZONA 85701
LAURA.CHIASSON@AZAG.GOV
CADOCKET@AZAG.GOV
TELEPHONE: (520) 628-6520

ATTORNEYS FOR RESPONDENTS

 
AFFIDAVIT
STATE OF ARIZONA

County of Pima

Diane Leigh Hunt, being first duly sworn upon oath, deposes and says:

That she is a member in good standing of the United States Supreme Court
Bar. That on March 30, 2020, she caused to be e-filed and deposited in a FedEx
envelope, shipping pre-paid, Original + 10 copies of the motion for extension of time
to file the State’s brief in opposition in Leroy D. Cropper v. State of Arizona, to:

Honorable Scott S. Harris
United States Supreme Court
Office of the Clerk

1 First Street, N.E.
Washington, D.C. 20543

and caused to be e-mailed and deposited in a United States Post Office, first-class

postage prepaid, one copy addressed to:

Melissa Arbus Shelby Michael J. Meehan

Counsel of Record Law Office of Michael Meehan
Latham & Watkins LLP 3938 E. Grant Road, No. 423
555 Eleventh Street, N.W. Tucson, AZ 85712

Suite 1000 mmechan.az@msn.com

Washington, DC 20004
Melissa.sherry@lw.com

Todd E. Hale

Todd Hale Law PLLC

The Historic Palacio Ruelas
290 N. Meyer Avenue
Tucson, AZ 85701
todd@toddhalelaw.com

All parties required to be served have been served<

  
SUBSCRIBED AND SWORN to before me this 30th day of March, 2020.

C Z, gob fa Notary Public

My Commission Expires:

 
